                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00432-217




    Combined Assessment Program 

            Review of the 

      Spokane VA Medical Center 

        Spokane, Washington 





June 12, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA



                                              Glossary
                 CACC           Critical and Acute Care Committee
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COC            coordination of care
                 COS            Chief of Staff
                 CS             controlled substances
                 CSC            Construction Safety Committee
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Spokane VA Medical Center
                 FY             fiscal year
                 HPC            hospice and palliative care
                 HRCP           Home Respiratory Care Program
                 HRCT           home respiratory care team
                 ICC            Infection Control Committee
                 IPC            interdisciplinary plan of care
                 NA             not applicable
                 NC             noncompliant
                 NHPPD          nursing hours per patient day
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                     CAP Review of the Spokane VA Medical Center, Spokane, WA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             7

  COC – HPC ............................................................................................................           8

  Long-Term Home Oxygen Therapy ........................................................................                          10

  Nurse Staffing .........................................................................................................        12

  Preventable Pulmonary Embolism ..........................................................................                       14

  Construction Safety.................................................................................................            15


Review Activity with Previous CAP Recommendations ......................................... 17

  Follow-Up on COC Issue ........................................................................................ 17


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              31

  F. Report Distribution .............................................................................................            32

  G. Endnotes ...........................................................................................................         33





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
February 25, 2013.

Review Results: The review covered eight activities and a follow-up review area
from the previous Combined Assessment Program review.                            We made no
recommendations in the following three activities:

   Environment of Care

   Medication Management – Controlled Substances Inspections

   Preventable Pulmonary Embolism

The facility’s reported accomplishment was innovation in environment of care rounds,
which includes rounding all zoned areas across the organization at least twice annually.

Recommendations: We made recommendations in the following five activities and
in the follow-up review area:

Quality Management: Ensure actions from peer reviews are consistently completed and
reported to the Peer Review Committee. Require the Critical and Acute Care
Committee to review each code episode.

Coordination of Care – Hospice and Palliative Care: Include a dedicated administrative
support person and a dedicated psychologist or other mental health provider on the
Palliative Care Consult Team, and ensure the team regularly provides end-of-life
training. Require that all hospice and palliative care (HPC) staff and non-HPC staff
receive end-of-life training. Act upon HPC consults within 7 days of the request.
Consistently assess HPC inpatients’ pain within 4 hours following an intervention,
document the results, and monitor compliance.             Consistently implement pain
interventions identified on HPC inpatients’ care plans. Ensure interdisciplinary plans of
care specify responsible team members. Require the community living center social
worker to document in the electronic health record that the condolence letter was sent.

Long-Term Home Oxygen Therapy: Ensure the Chief of Staff reviews Home Respiratory
Care Program activities at least quarterly. Establish a home respiratory care team, and
conduct periodic, unscheduled onsite visits to the oxygen delivery contractor. Ensure
that home oxygen program patients have active prescriptions and that patients are
re-evaluated for home oxygen therapy annually after the first year. Identify high-risk
home oxygen patients. Ensure prescribing clinicians conduct initial and follow-up
evaluations of home oxygen program patients.




VA OIG Office of Healthcare Inspections                                                          i
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Nurse Staffing: Include all required members on the facility expert panel. Ensure all
members of the facility and unit-based expert panels receive the required training prior
to the next annual staffing plan reassessment. Monitor the staffing methodology that
was implemented in August 2011.

Construction Safety: Establish a policy outlining responsibilities of the multidisciplinary
committee that oversees construction and renovation activities. Include all required
elements in documentation of construction site inspections.             Conduct infection
surveillance activities related to construction projects, and document this in Infection
Control Committee minutes. Ensure that Construction Safety Committee minutes
contain documentation of follow-up actions in response to unsafe conditions identified
during inspections and that minutes track actions to completion. Require designated
employees to receive ongoing construction safety training, and monitor compliance.
Ensure that when required, continuous negative air pressure is achieved prior to
initiating work at a construction site.

Follow-Up on Coordination of Care Issue: Ensure physician orders and discharge
summaries are consistent.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–30, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, interviewed managers and employees, and reviewed clinical
and administrative records. The review covered the following eight activities and one
follow-up review area from the previous CAP review:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   COC – HPC

   	   Long-Term Home Oxygen Therapy

   	   Nurse Staffing

   	   Preventable Pulmonary Embolism

   	   Construction Safety

   	   Follow-Up on COC Issue

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
February 28, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment


VA OIG Office of Healthcare Inspections                                                         1
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Program Review of the Spokane VA Medical Center, Spokane, Washington, Report
No. 09-01001-130, May 20, 2009). We made a repeat recommendation in COC.

During this review, we presented crime awareness briefings for 148 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
238 responded. We shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

EOC Rounds Innovation
EOC rounds cover all zoned areas across the organization at least twice annually, and
there is a high level of interdisciplinary involvement. A culture of ownership is being
developed by involving area managers and staff in conducting service-level EOC
rounds more frequently in their respective areas. Additionally, managers and staff are
encouraged to initiate work orders for timely issue resolution.

The organization is employing technology to improve efficiency and tracking of EOC
tasks. An example is the use of innovative handheld technology (a Wi-Fi tablet) to take
pictures, initiate work orders from the point of care, and synchronize in real time with the
EOC tracking database.




VA OIG Office of Healthcare Inspections                                                         2
                                               CAP Review of the Spokane VA Medical Center, Spokane, WA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We interviewed senior managers and key QM employees, and we evaluated meeting minutes,
EHRs, and other relevant documents. The table below shows the areas reviewed for this topic.
The areas marked as NC needed improvement. Items that did not apply to this facility are
marked “NA.”

 NC                   Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
 X     Corrective actions from the protected peer       Twelve months of PRC meeting minutes
       review process were reported to the PRC.         reviewed:
                                                         Of the 20 actions expected to be completed,
                                                           7 were not reported to the PRC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
 X     The cardiopulmonary resuscitation review         Twelve months of CACC meeting minutes
       policy and processes complied with               reviewed:
       requirements for reviews of episodes of care      There was no evidence that the committee
       where resuscitation was attempted.                  reviewed each code episode.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                                 3
                                                 CAP Review of the Spokane VA Medical Center, Spokane, WA


 NC             Areas Reviewed (continued)                                 Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were
       transmitted to the data center with the
       required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the PRC.

2. We recommended that processes be strengthened to ensure that the CACC reviews each
code episode.




VA OIG Office of Healthcare Inspections                                                                4
                                                 CAP Review of the Spokane VA Medical Center, Spokane, WA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements.2

We inspected the audiology, primary care, women’s health, and occupational and physical
therapy outpatient clinics; the advanced care unit; the CLC; the emergency department; the
intensive care unit; and the medical/surgical and mental health inpatient units. Additionally, we
reviewed relevant documents and interviewed key employees and managers. The table below
shows the areas reviewed for this topic. Items that did not apply to this facility are marked “NA.”
The facility generally met requirements. We made no recommendations.

 NC           Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       The facility had a policy that detailed cleaning
       of equipment between patients.
       Patient care areas were clean.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
         Areas Reviewed for the Women’s Health
                             Clinic
       The Women Veterans Program Manager
       completed required annual EOC evaluations,
       and the facility tracked women’s health-related
       deficiencies to closure.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.




VA OIG Office of Healthcare Inspections                                                                5
                                             CAP Review of the Spokane VA Medical Center, Spokane, WA


 NC      Areas Reviewed for the Women’s Health                         Findings
                      Clinic (continued)
       Medication safety and security requirements
       were met.
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
        Areas Reviewed for Physical Medicine and
               Rehabilitation Therapy Clinics
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                            6
                                               CAP Review of the Spokane VA Medical Center, Spokane, WA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and interviewed key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. Items that did not apply to this facility are
marked “NA.” The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                    Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                              7
                                                CAP Review of the Spokane VA Medical Center, Spokane, WA


COC – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 22 employee training records (7 HPC staff records and 15 non-HPC
staff records), and we interviewed key employees. The table below shows the areas reviewed
for this topic. The areas marked as NC needed improvement. Items that did not apply to this
facility are marked “NA.”

NC                   Areas Reviewed                                        Findings
 X     A PCCT was in place and had the dedicated        List of staff assigned to the PCCT reviewed:
       staff required.                                   An administrative support person had not
                                                           been dedicated to the PCCT.
                                                         A psychologist or other mental health provider
                                                           had not been dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
 X     The PCCT offered end-of-life training.            We did not find evidence that the PCCT
                                                          offered end-of-life training.
 X     HPC staff and selected non-HPC staff had          Of the seven HPC staff, there was no
       end-of-life training.                              evidence that three had end-of-life training.
                                                         Of the 15 non-HPC staff, there was no
                                                          evidence that 8 had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
 X     The PCCT responded to consults within the         Four consults were not acted upon within
       required timeframe and tracked consults that       7 days of the request.
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
 X     HPC inpatients were assessed for pain with        Six EHRs did not contain documentation of
       the frequency required by local policy.            pain assessments within 4 hours following an
                                                          intervention.


VA OIG Office of Healthcare Inspections                                                                   8
                                                 CAP Review of the Spokane VA Medical Center, Spokane, WA


 NC             Areas Reviewed (continued)                                   Findings
 X     HPC inpatients’ pain was managed according         Four EHRs did not contain documentation
       to the interventions included in the care plan.     that pain was managed according to the
                                                           interventions included in the IPC.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
 X     The facility complied with any additional          None of the inpatients’ IPCs specified
       elements required by VHA or local policy.           responsible team members as required by
                                                           local policy.
                                                          Three of 10 inpatients’ EHRs did not contain
                                                           evidence that the CLC social worker
                                                           completed the CLC condolence letter as
                                                           required by local policy.

Recommendations

3. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated administrative support person and a dedicated psychologist or other mental health
provider.

4.    We recommended that the PCCT provide end-of-life training on a regular basis.

5. We recommended that processes be strengthened to ensure that all HPC staff and
non-HPC staff receive end-of-life training.

6. We recommended that processes be strengthened to ensure that HPC consults are acted
upon within 7 days of the request.

7. We recommended that processes be strengthened to ensure that HPC inpatients’ pain is
consistently assessed within 4 hours following an intervention and results documented in the
EHR and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that pain interventions
identified on HPC inpatients’ IPCs are consistently implemented.

9. We recommended that processes be strengthened to ensure that IPCs specify responsible
team members.

10. We recommended that processes be strengthened to ensure that the CLC social worker
documents in the EHR that the CLC condolence letter was sent.




VA OIG Office of Healthcare Inspections                                                                   9
                                                CAP Review of the Spokane VA Medical Center, Spokane, WA


Long-Term Home Oxygen Therapy
The purpose of this review was to determine whether the facility complied with requirements for
long-term home oxygen therapy in its mandated HRCP.5

We reviewed relevant documents and 31 EHRs of patients enrolled in the home oxygen
program, and we interviewed key employees. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Items that did not apply to this
facility are marked “NA.”

NC                   Areas Reviewed                                       Findings
       There was a local policy to reduce the fire
       hazards of smoking associated with oxygen
       treatment.
 X     The COS reviewed HRCP activities at least        We found no evidence that program activities
       quarterly.                                        were reviewed quarterly.
 X     The facility had established an HRCT.            We found no evidence that a team had been
                                                         established prior to the study period.
 X     Contracts for oxygen delivery contained all     One contract reviewed:
       required elements and were monitored             We found no evidence that the Contracting
       quarterly.                                        Officer’s Technical Representative, or
                                                         designee, conducted periodic, unscheduled
                                                         onsite visits to the contractor as required in
                                                         the contract.
 X     Home oxygen program patients had active          We found no evidence of active prescriptions
       orders/prescriptions for home oxygen and          for home oxygen in any of the EHRs.
       were re-evaluated for home oxygen therapy        There was no documentation that 19 patients
       annually after the first year.                    (61 percent) were re-evaluated annually after
                                                         the first year.
       Patients identified as high risk received
       hazards education at least every 6 months
       after initial delivery.
 X     NC high-risk patients were identified and        We found no evidence that patients were
       referred to a multidisciplinary clinical          being identified as high risk.
       committee for review.
 X     The facility complied with any additional        We found no evidence that prescribing
       elements required by VHA or local policy.         clinicians conducted follow-up evaluations of
                                                         home oxygen program patients as required
                                                         by VHA.

Recommendations

11. We recommended that processes be strengthened to ensure that the COS reviews HRCP
activities at least quarterly.

12. We recommended that the facility establish an HRCT.

13. We recommended that the facility conduct periodic, unscheduled onsite visits to the oxygen
delivery contractor.


VA OIG Office of Healthcare Inspections                                                               10
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


14. We recommended that processes be strengthened to ensure that home oxygen program
patients have active prescriptions and that patients are re-evaluated for home oxygen therapy
annually after the first year.

15. We recommended that processes be strengthened to ensure that high-risk home oxygen
patients are identified.

16. We recommended that processes be strengthened to ensure that prescribing clinicians
conduct initial and follow-up evaluations of home oxygen program patients.




VA OIG Office of Healthcare Inspections                                                        11
                                                CAP Review of the Spokane VA Medical Center, Spokane, WA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two selected units
(acute care and long-term care).6

We reviewed relevant documents and 16 training files, and we interviewed key employees.
Additionally, we reviewed the actual NHPPD for acute care unit 3-South and the CLC unit for
50 randomly selected days (holidays, weekdays, and weekend days) between October 1, 2011,
and September 30, 2012. The table below shows the areas reviewed for this topic. The areas
marked as NC needed improvement. Items that did not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                        Findings
       The unit-based expert panels followed the
       required processes.
 X     The facility expert panel followed the required    The facility panel did not include staff nurses
       processes and included all required members.        or other nursing staff providing direct patient
                                                           care, Associate or Assistant Nurse
                                                           Executive(s) with clinical area responsibilities,
                                                           evening and night supervisory staff, nurse
                                                           managers from the various areas of the
                                                           facility, or a labor partner representative.
 X     Members of the expert panels completed the         None of the four members of unit 3-South’s
       required training.                                  panel had completed the required training.
                                                          None of the seven members of the CLC unit’s
                                                           panel had completed the required training.
                                                          None of the five members of the facility
                                                           expert panel had completed the required
                                                           training.
       The facility completed the required steps to
       develop a nurse staffing methodology by
       September 30, 2011.
 X     The selected units’ actual NHPPD met or            The facility had not retained the actual
       exceeded the target NHPPD.                          NHPPD that was calculated on a daily basis.
                                                           Therefore, we were unable to determine
                                                           whether the actual NHPPD met or exceeded
                                                           the target NHPPD.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

17. We recommended that the annual staffing plan reassessment process ensures that all
required staff are facility expert panel members.

18. We recommended that all members of the facility and unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                   12
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


19. We recommended that nursing managers monitor the staffing methodology that was
implemented in August 2011.




VA OIG Office of Healthcare Inspections                                                        13
                                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Preventable Pulmonary Embolism
The purpose of this review was to evaluate the care provided to patients who were treated at the
facility and developed potentially preventable pulmonary embolism.7

We reviewed relevant documents and nine EHRs of patients with confirmed diagnoses of
pulmonary embolisma January 1–June 30, 2012. We also interviewed key employees. The
table below shows the areas reviewed for this topic. Items that did not apply to this facility are
marked “NA.” The facility generally met requirements. We made no recommendations.

    NC                   Areas Reviewed                                                     Findings
         Patients with potentially preventable
         pulmonary emboli received appropriate
         anticoagulation medication prior to the event.
         No additional quality of care issues were
         identified with the patients’ care.
         The facility complied with any additional
         elements required by VHA or local
         policy/protocols.




a
 A sudden blockage in a lung artery usually caused by a blood clot that travels to the lung from a vein in the body, most
commonly in the legs.


VA OIG Office of Healthcare Inspections                                                                                     14
                                                  CAP Review of the Spokane VA Medical Center, Spokane, WA


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.8

We inspected the fire stopping/smoke wall penetration project. Additionally, we reviewed
relevant documents and 20 training records (10 contractor records and 10 employee records),
and we interviewed key employees and managers. The table below shows the areas reviewed
for this topic. The areas marked as NC needed improvement. Items that did not apply to this
facility are marked “NA.”

 NC                    Areas Reviewed                                          Findings
 X     There was a multidisciplinary committee to          The facility did not have a policy outlining
       oversee infection control and safety                 responsibilities of the multidisciplinary
       precautions during construction and                  committee.
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the             Site inspection documentation for 2 quarters
       required multidisciplinary team members at         reviewed:
       the specified frequency and included all            Documentation did not include the time of
       required elements.                                    inspections and time of corrective actions.
 X     ICC minutes documented infection                   ICC minutes for past 2 quarters reviewed:
       surveillance activities associated with the         There was no documentation of infection
       project(s) and any interventions.                     surveillance activities related to the fire
                                                             stopping/smoke wall penetration project or
                                                             any other specific construction project.
 X     CSC minutes documented any unsafe                  CSC minutes for past 2 months reviewed:
       conditions found during inspections and any         Although unsafe conditions were discussed
       follow-up actions and tracked actions to              by project in the most recent minutes, the
       completion.                                           committee had not been operational long
                                                             enough to track evidence of follow-up actions
                                                             in the minutes.
 X     Contractors and designated employees               Employee and contractor training records
       received required training.                        reviewed:
                                                           Five employee records did not contain
                                                             evidence of 10 hours of construction
                                                             safety-related training in the past 2 years.



VA OIG Office of Healthcare Inspections                                                                    15
                                             CAP Review of the Spokane VA Medical Center, Spokane, WA


 NC           Areas Reviewed (continued)                                 Findings
 X     Dust control requirements were met.            While inspecting the set-up of a new
                                                       construction site for the project, the CAP
                                                       team inspector identified problems with
                                                       continuous negative air pressure. The facility
                                                       took action to remedy the situation prior to
                                                       beginning work.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

20. We recommended that the facility establish a policy outlining responsibilities of the
multidisciplinary committee that oversees construction and renovation activities.

21. We recommended that processes be strengthened to ensure that documentation of
construction site inspections includes all required elements.

22. We recommended that processes be strengthened to ensure that infection surveillance
activities related to construction projects are conducted and documented in ICC minutes.

23. We recommended that processes be strengthened to ensure that CSC minutes contain
documentation of follow-up actions in response to unsafe conditions identified during
inspections and that minutes track actions to completion.

24. We recommended that processes be strengthened to ensure that designated employees
receive ongoing construction safety training and that compliance be monitored.

25. We recommended that processes be strengthened to ensure that when required,
continuous negative air pressure is achieved prior to initiating work at a construction site.




VA OIG Office of Healthcare Inspections                                                             16
                                            CAP Review of the Spokane VA Medical Center, Spokane, WA



     Review Activity with Previous CAP Recommendations 

Follow-Up on COC Issue
As a follow-up to a recommendation from our prior CAP review, we reassessed facility
compliance with discharge documentation.

Discharge Documentation. VHA requires a discharge summary that includes information
regarding medications, diet, activity level, and follow-up care for all patients released from VHA
inpatient care.9 The facility identified inconsistencies between physician orders and discharge
summaries for diet, activity level, and recommendations for follow-up care, and reported that it
was not compliant with this requirement.

Recommendation

26. We recommended that processes be strengthened to ensure that physician orders and
discharge summaries are consistent.




VA OIG Office of Healthcare Inspections                                                          17
                                                 CAP Review of the Spokane VA Medical Center, Spokane, WA
                                                                                               Appendix A

                        Facility Profile (Spokane/668) FY 2012b
Type of Organization                                                          Secondary
Complexity Level                                                              3-Low complexity
Affiliated/Non-Affiliated                                                     Affiliated
Total Medical Care Budget in Millions                                         $158.5
Number of:
    Unique Patients                                                          29,797
    Outpatient Visits                                                        325,416
    Unique Employeesc (as of last pay period in
        FY 2012)                                                              709
Type and Number of Operating Beds:
    Hospital                                                                 36
    CLC                                                                      34
    Mental Health                                                            Not Available
Average Daily Census: (through August 2012)
    Hospital                                                                 24
    CLC                                                                      26
    Mental Health                                                            Not Available
Number of Community Based Outpatient Clinics                                  2
Location(s)/Station Number(s)                                                 Wenatchee, WA/668GA
                                                                              North Idaho, ID/668GB
VISN Number                                                                   20




b
    All data is for FY 2012 except where noted.

c
    Unique employees involved in direct medical care (cost center 8200). 



VA OIG Office of Healthcare Inspections                                                               18
                                               CAP Review of the Spokane VA Medical Center, Spokane, WA
                                                                                             Appendix B

                             VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                       Inpatient Scores                               Outpatient Scores
                           FY 2012                                        FY 2012
                    Inpatient       Inpatient       Outpatient    Outpatient        Outpatient    Outpatient
                    Score           Score           Score         Score             Score         Score
                    Quarters 1–2    Quarters 3–4    Quarter 1     Quarter 2         Quarter 3     Quarter 4
    Facility        81.2            73.9            59.0          44.9              50.5          47.2
    VISN            65.3            65.3            51.5          49.3              49.9          49.8
    VHA             63.9            65.0            55.0          54.7              54.3          55.0



                           Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.d Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.e

Table 2

                                   Mortality                                    Readmission
               Heart Attack        Heart           Pneumonia     Heart Attack     Heart           Pneumonia
                                   Failure                                        Failure
    Facility   **                  10.1            10.0          **               22.0            15.0
    U.S.
    National   15.5                11.6            12.0          19.7             24.7            18.5
    ** The number of cases is too small (fewer than 25) to reliably tell how well the facility is performing.




d
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
e
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         19
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA
                                                                                        Appendix C
                                VISN Director Comments



                Department of
                Veterans Affairs 	                                 Memorandum


       Date: 	          May 3, 2013

       From: 	          Network Director, VISN 20 (10N20)

       Subject: 	       Draft Report – CAP Review of the Spokane VA Medical
                        Center, Spokane, WA (668/00)

       To: 	            Director, Seattle Regional Office of Healthcare Inspections
                        (54SE)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. 	 Thank you for the opportunity to provide a status report on follow-up
            to the findings from the Combined Assessment Program Review of
            the Spokane VA Medical Center, Spokane, Washington.

       2. 	 Attached please find the facility concurrences and responses to each
            of the findings from the review.

       3. 	 If you have additional questions or need further information, please
            contact Susan Gilbert, Survey Coordinator, VISN 20 at
            (360) 567-4678.


               (original signed by:)
            Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                        20
                                           CAP Review of the Spokane VA Medical Center, Spokane, WA
                                                                                         Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


       Date:           May 2, 2013

       From:           Director, Spokane VA Medical Center (668/00)

       Subject:        CAP Review of the Spokane VA Medical Center,
                       Spokane, WA

       To:             Director, Northwest Network (10N20)

       1. Please find attached the Spokane VAMC status report on the follow-up
          to the findings from the CAP Review at Spokane VA Medical Center,
          Spokane, WA during the week of February 25, 2013.

       2. The Spokane VAMC staff is committed to continuously improving
          processes and care provided to our Veterans and have worked to
          correct the recommendations identified in the attached report.

       3. If you have additional questions, or need additional information, please
          contact Betty Braddock at 509-434-7300.


                   (original signed by:)
           Linda K. Reynolds, MA, FACHE
           Medical Center Director

           Attachment




VA OIG Office of Healthcare Inspections                                                         21
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the PRC.

Concur

Target date for completion: July 31, 2013

Facility response: The Risk Manager has developed an action log to follow every action
item identified by the Peer Review Committee through to completion. This action log is
now a standing agenda item at the Peer Review Committee. Actions will be tracked
and monitored monthly.

Recommendation 2. We recommended that processes be strengthened to ensure that
the CACC reviews each code episode.

Concur

Target date for completion: July 31, 2013

Facility response: Spokane VAMC developed a process in August 2012 where Quality
Management reviews every “Morning Report” document for code blues and rapid
responses. These cases are then forwarded to the ICU Nurse Manager to disseminate
for review by a provider. When cases are disseminated for review, they are also added
to the standing CACC agenda for committee discussion/review. This new process has
prevented any review fallouts since its implementation. Quality Management tracks and
monitors all codes to ensure all are reviewed in the CACC.

Recommendation 3. We recommended that processes be strengthened to ensure that
the PCCT includes a dedicated administrative support person and a dedicated
psychologist or other mental health provider.

Concur

Target date for completion: July 31, 2013

Facility response: Spokane VAMC is evaluating staffing to identify an appropriate
administrative support person for the PCCT. Administrative Support personnel will be
identified and dedicated by June 2013. The CLC Hospice Psychologist will be
dedicated to the PCCT by May 2013.




VA OIG Office of Healthcare Inspections                                                        22
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Recommendation 4. We recommended that the PCCT provide end-of-life training on a
regular basis.

Concur

Target date for completion: July 31, 2013

Facility response: The PCCT has identified an end-of-life training module, which is now
offered through the Talent Management System (TMS). The training module will be
assigned to all staff as part of their mandatory annual training. Completion of the
module is tracked and monitored through the TMS. Staff and their Supervisors will
receive reminders annually when their training is due.

Recommendation 5. We recommended that processes be strengthened to ensure that
all HPC staff and non-HPC staff receive end-of-life training.

Concur

Target date for completion: July 31, 2013

Facility response: A 3-hour Hospice/Palliative Care Training has been scheduled
April 30 for all PCCT members. This training includes 2 hours of training with 1 hour of
questions and answers. Follow-up training will be provided through the Talent
Management System (TMS) and will be an annual requirement for all PCCT members.

Annual end-of-life training is currently offered through TMS and has been completed by
clinical RN staff. This training will be assigned to all staff for initial and annual training.

Recommendation 6. We recommended that processes be strengthened to ensure that
HPC consults are acted upon within 7 days of the request.

Concur

Target date for completion: July 31, 2013

Facility response: While consults are regularly acted upon by the PCCT Nurse
Practitioner, in a timely manner, there was a failure to close the consults after contact.
The PCCT Nurse Practitioner has received education and is now appropriately closing
consults within the seven day timeframe after contacting the Veteran.

The PCCT Nurse Practitioner now receives all consult reminders for follow-up, which
previously had been received by the Chief of Social Work.

The Chief of Social Work will monitor consults weekly to ensure that consults are being
acted upon and closed in a timely manner.




VA OIG Office of Healthcare Inspections                                                        23
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Recommendation 7. We recommended that processes be strengthened to ensure that
HPC inpatients’ pain is consistently assessed within 4 hours following an intervention
and results documented in the EHR and that compliance be monitored.

Concur

Target date for completion: July 31, 2013

Facility response: The CLC Pain Management Standard Operating Procedure (SOP)
has been amended to better illustrate the practice of pain intervention on the Hospice
Care Unit. Appropriate CLC staff has been educated about the policy requirement for
assessing pain within four hours following an intervention. Training has been
documented.

The BCMA Coordinator will continue to monitor for documentation of pain reassessment
in the EHR.

Recommendation 8. We recommended that processes be strengthened to ensure that
pain interventions identified on HPC inpatients’ IPCs are consistently implemented.

Concur

Target date for completion: July 31, 2013

Facility response: The Hospice Case Manager has developed a new process to notify
staff when the IPCs are changed or amended. The CLC Nurse Manager has educated
all clinical staff of the IPC location. The CLC Nurse Manager has added the Hospice
CNA to the care plan meetings to better communicate effective pain interventions for
each Veteran. The CLC Nurse Manager will perform random chart audits to ensure that
pain interventions identified on HPC inpatients are consistently implemented.

Recommendation 9. We recommended that processes be strengthened to ensure that
IPCs specify responsible team members.

Concur

Target date for completion: July 31, 2013

Facility response: The CLC Nurse Manager has educated the Hospice Case Manager
regarding the requirement to specify which team members are responsible for certain
aspects of care.

The Hospice Case Manager will begin identifying these responsible team members in
the Interdisciplinary Plan of Care.

The CLC Nurse Manager will perform random chart audits to ensure that the IPCs
specify responsible team members.




VA OIG Office of Healthcare Inspections                                                        24
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Recommendation 10. We recommended that processes be strengthened to ensure 

that the CLC social worker documents in the EHR that the CLC condolence letter was

sent. 


Concur


Target date for completion: July 31, 2013 


Facility response: The CLC Social Worker has been educated regarding the

requirement to document in the EHR that the condolence letters have been sent. 


The CLC Social Worker has developed an improved process to ensure the condolence 

letter is documented in the EHR. 


The PCCT Social Worker will review each Hospice case to ensure that condolence 

letters are documented in the EHR. The PCCT Social Worker will monitor and follow up

with the CLC Social Worker with any fallouts.


Recommendation 11. We recommended that processes be strengthened to ensure 

that the COS reviews HRCP activities at least quarterly. 


Concur


Target date for completion: July 31, 2013 


Facility response: The Home Oxygen Report has been added to the Clinical Executive

Council (CEC) as a standing agenda item for quarterly review. 


Review will begin with the CEC meeting in May and documented in the meeting 

minutes. 


Recommendation 12. We recommended that the facility establish an HRCT. 


Concur


Target date for completion: July 31, 2013 


Facility response: The Home Respiratory Care Team (HRCT) was established in 

December 2012. The HRCT began meeting monthly in December 2012. Monitoring of 

the Home Oxygen Program is documented in the HRCT meeting minutes. 


The HRCT will report quarterly to the Clinical Executive Committee (CEC). 


Recommendation 13.           We recommended that the facility conduct periodic, 

unscheduled onsite visits to the oxygen delivery contractor. 


Concur


Target date for completion: July 31, 2013 



VA OIG Office of Healthcare Inspections                                                        25
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Facility response: Periodic unscheduled onsite visits to the contractor are occurring and
will continue quarterly and will be documented per the Directive. Quality Management
will track and monitor that quarterly onsite visits are completed and any/all actions are
documented.

Recommendation 14. We recommended that processes be strengthened to ensure
that home oxygen program patients have active prescriptions and that patients are
re-evaluated for home oxygen therapy annually after the first year.

Concur

Target date for completion: July 31, 2013

Facility response: A new process has been developed so that prescriptions, when
initiated or renewed, are signed by the prescribing physician and documented in the
EHR. The Home Oxygen Coordinator will submit consults, which will be held until an
order has been signed. The Home Oxygen Coordinator will follow up with the
prescribing physician after the initial and annual evaluations to ensure the orders are
entered timely.

The Home Oxygen Coordinator has developed an improved process to ensure annual
evaluations are completed timely. The Home Oxygen Coordinator now runs reports for
upcoming annual reassessments 30-60 days prior to the actual due date. This allows
for timely scheduling of the Veteran prior to prescription expiration. Once the Home
Oxygen Coordinator completes the annual reassessment, an appointment will be
entered into the prescribing physician’s schedule for annual reassessment. This
process will be monitored by the Home Respiratory Care Team (HRCT).

Recommendation 15. We recommended that processes be strengthened to ensure
that high-risk home oxygen patients are identified.

Concur

Target date for completion: July 31, 2013

Facility response: The Home Respiratory Care Coordinator has developed a spread
sheet to track all high-risk patients and when their six (6) month refresher education is
due. This spreadsheet will be completely populated with current Veterans by July 2013.

The Home Respiratory Care Coordinator will review all current home oxygen patients to
ensure high-risk patients are identified in the electronic health record. Going forward all
patients identified as high-risk during initial evaluation will be identified as such in the
electronic health record and on the high-risk spread sheet. This process will be
monitored by the Home Respiratory Care Team (HRCT).




VA OIG Office of Healthcare Inspections                                                        26
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Recommendation 16. We recommended that processes be strengthened to ensure
that prescribing clinicians conduct initial and follow-up evaluations of home oxygen
program patients.

Concur

Target date for completion: July 31, 2013

Facility response: A process has been developed giving the Home Oxygen Coordinator
access to the prescribing physician’s schedule. The Home Oxygen Coordinator will
schedule the prescribing physician to conduct initial and follow-up evaluations with the
Veteran.

The Home Oxygen Coordinator will track and monitor scheduled evaluations to
completion. Weekly, the Home Oxygen Coordinator will follow-up with any prescribing
physicians that have not completed initial or follow-up evaluations. This process will be
monitored by the Home Respiratory Care Team (HRCT).

Recommendation 17. We recommended that the annual staffing plan reassessment
process ensures that all required staff are facility expert panel members.

Concur

Target date for completion: July 31, 2013

Facility response: The Spokane VAMC Associate Director of Patient Care Services
(ADPCS) has identified and appointed all of the required staff to the facility expert panel
as required by the staffing methodology for nursing personnel.

The appointed staff will complete the required chapters as required by the staffing
methodology for nursing personnel. This education will be tracked and documented by
Nursing Service.

Recommendation 18. We recommended that all members of the facility and
unit-based expert panels receive the required training prior to the next annual staffing
plan reassessment.

Concur

Target date for completion: July 31, 2013

Facility response: The annual staffing plan reassessment is due August 2013. Prior to
the staffing plan reassessment, the ADPCS will ensure that members of the
facility-based panel and unit-based panels complete all required training.

All required training will be documented in the TMS.




VA OIG Office of Healthcare Inspections                                                        27
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Recommendation 19. We recommended that nursing managers monitor the staffing 

methodology that was implemented in August 2011. 


Concur


Target date for completion: July 31, 2013 


Facility response: A database has been consolidated to include minimum, maximum,

and actual HPPD data. 


This data base will be updated each shift. 


The HPPD data base will be monitored by Nurse Managers, Deputy Chief of Nursing,

and the Nurse Executive monthly. 


Recommendation 20. We recommended that the facility establish a policy outlining 

responsibilities of the multidisciplinary committee that oversees construction and 

renovation activities. 


Concur


Target date for completion: July 31, 2013 


Facility response: A policy outlining responsibilities of the multidisciplinary Construction 

Safety Committee has been developed and signed by the Medical Center Director.

Activities of the committee will be documented in their meeting minutes. The committee 

reports quarterly to Environment of Care Committee. 


Recommendation 21. We recommended that processes be strengthened to ensure 

that documentation of construction site inspections includes all required elements. 


Concur


Target date for completion: July 31, 2013 


Facility response: The construction site inspections form has been amended to include 

all members present, along with the date and time of the inspection. The construction 

forms will be standing agenda items at the Construction Safety Committee where

findings will be discussed and tracked to completion. Discussion and tracking will be 

documented in the meeting minutes. 


Recommendation 22. We recommended that processes be strengthened to ensure 

that infection surveillance activities related to construction projects are conducted and 

documented in ICC minutes. 


Concur


Target date for completion: July 31, 2013 




VA OIG Office of Healthcare Inspections                                                        28
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Facility response: Infection Control inspections have been added to the Infection Control
spreadsheet, which is a standing agenda item on the Infection Control Committee
agenda. Infection Control is part of the Construction Safety Committee and will conduct
infection surveillance activities regularly on all construction projects.

Documentation of any issues and/or corrective actions will be included in the meeting
minutes of the Construction Safety Committee and the Infection Control Committee and
tracked to completion.

Recommendation 23. We recommended that processes be strengthened to ensure
that CSC minutes contain documentation of follow-up actions in response to unsafe
conditions identified during inspections and that minutes track actions to completion.

Concur

Target date for completion: July 31, 2013

Facility response: The Construction Safety Committee has a process in place to
document follow-up actions for unsafe conditions identified during inspections.

The Construction Safety Committee has a standing agenda item used to discuss unsafe
conditions. These items will be tracked to correction/completion. The Construction
Safety Committee reports quarterly to the Environment of Care Committee.

Recommendation 24. We recommended that processes be strengthened to ensure
that designated employees receive ongoing construction safety training and that
compliance be monitored.

Concur

Target date for completion: July 31, 2013

Facility response: Construction safety training had been completed by all members of
the Construction Safety Committee by January 2013.

The Construction Safety Committee will provide ongoing construction training quarterly.

Training will be documented in the Construction Safety Committee minutes.

Recommendation 25. We recommended that processes be strengthened to ensure
that when required, continuous negative air pressure is achieved prior to initiating work
at a construction site.

Concur

Target date for completion: July 31, 2013

Facility response: Education with contract personnel was completed immediately to
ensure proper set-up of continuous negative air pressure prior to initiating work.


VA OIG Office of Healthcare Inspections                                                        29
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA


Additionally, inspections are routinely conducted prior to initiation of work, during work
and prior to removal of barriers at all sites requiring negative air flow. Inspection activity
will be documented in the Construction Safety Committee minutes and the Infection
Control Committee minutes.

Recommendation 26. We recommended that processes be strengthened to ensure
that physician orders and discharge summaries are consistent.

Concur

Target date for completion: August 2013

Facility response: Spokane VAMC will develop a dictation template that will prompt the
provider to dictate discharge summaries based on their discharge orders.

The Chief of Staff and Chief of Surgery will educate discharging providers during
Interdisciplinary Team huddles and one-on-one on the requirement to ensure discharge
summaries match discharge orders through use of the discharge template. This training
will be documented with signed acknowledgement by each provider.

Spokane VAMC will do monthly random chart audits to ensure discharge summaries
are matching discharge orders. When a provider is found non-compliant, the Chief of
Medicine and Chief of Staff will be notified, so that one-on-one counseling can occur.




VA OIG Office of Healthcare Inspections                                                        30
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA
                                                                                      Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Contributors            Noel Rees, MPA, Team Leader
                        Sarah Lutter, RN, JD
                        Sami O’Neill, MA
                        Susan Tostenrude, MS
                        Marc Lainhart, BS, Management and Program Analyst
                        M. Davidson Martin, Resident Agent in Charge




VA OIG Office of Healthcare Inspections                                                        31
                                          CAP Review of the Spokane VA Medical Center, Spokane, WA
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Northwest Network (10N20)
Director, Spokane VA Medical Center (668/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Max Baucus, Maria Cantwell, Mike Crapo, Patty Murray, James E. Risch,
 Jon Tester
U.S. House of Representatives: Doc Hastings, Raul R. Labrador, Steve Daines,
 David G. Reichert, Cathy McMorris Rodgers


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        32
                                               CAP Review of the Spokane VA Medical Center, Spokane, WA
                                                                                             Appendix G

                                                Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Directive 2008-007, Resident Assessment Instrument (RAI) Minimum Data Set (MDS), February 4, 2008;
    VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VA National Center for Patient Safety, “Ceiling mounted patient lift installations,” Patient Safety Alert 10-07,
    March 22, 2010.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Material Management.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.
5
   References used for this topic were:
	 VHA Directive 2006-021, Reducing the Fire Hazard of Smoking When Oxygen Treatment is Expected,
    May 1, 2006.
	 VHA Handbook 1173.13, Home Respiratory Care Program, November 1, 2000.
6
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                         33
                                              CAP Review of the Spokane VA Medical Center, Spokane, WA



7
     The reference used for this topic was:
	 VHA Office of Analytics and Business Intelligence, External Peer Review Technical Manual, FY2012 quarter 4,
    June 15, 2012, p. 80–98. 
8
   References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
    Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
    standards, and Occupational Safety and Health Administration (OSHA) regulations.
9
   The reference used for this topic was:
VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.




VA OIG Office of Healthcare Inspections                                                                        34
